 Spotlight
 Department of Homeland Security

Ofﬁce of Inspector General                                                                                  September 2014 OIG-14-142



(U) Vulnerabilities Exist in TSA's Checked Baggage
Screening Operations

Unclassified Summary
The Transportation Security Administration (TSA) is responsible for protecting the Nation's transportation systems to ensure
freedom of movement for people and commerce. As part of its mission, TSA screens checked baggage to deter, detect, and prevent
the carriage of any prohibited items, such as explosives and incendiaries, onboard passenger commercial aircraft. TSA primarily
relies on its screening workforce and two types of equipment to screen checked baggage - explosives detection systems and
explosives trace detection.

Through covert testing conducted at domestic airports, we determined whether Transportation Security Officers were following
established policies and procedures to prevent threat items from being placed onto commercial aircraft. We also determined the
operational effectiveness of TSA's checked baggage screening technology. We identified vulnerabilities in this area caused by human
and technology-based failures. We also determined that TSA does not have a process in place to assess or identify the cause for
equipment-based test failures or the capability to independently assess whether deployed explosive detection systems are operating at
the correct detection standards. The compilation of the number of tests conducted, the names of airports tested, and test results are
classified, or designated as Sensitive Security Information. According to TSA, the component spent $540 million for checked
baggage screening equipment and $11 million for training since 2009. Despite that investment, TSA has not improved checked
baggage screening since our last report in 2009.

We made five recommendations that, when implemented, should increase the effectiveness of the checked baggage screening
process. TSA concurred with our recommendations.




For Further Information:
Contact our Office of Public Affairs at (202)254-4100, or email us at DHS-OIG.OfficePublicAffairs@oig.dhs.gov
